Federal Financial
Institutions Examination
Council
Financial Statements as of and for the Years
Ended December 31, 2009 and 2008, and
Independent Auditors’ Report
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

TABLE OF CONTENTS


                                                                                       Page

INDEPENDENT AUDITORS’ REPORT                                                            1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2009 AND 2008:

 Balance Sheets                                                                         2

 Statements of Revenues and Expenses and Changes in Cumulative Results of Operations    3

 Statements of Cash Flows                                                               4

 Notes to Financial Statements                                                         5–12

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON
  INTERNAL CONTROL OVER FINANCIAL REPORTING BASED ON AN
  AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                                                        13-14
                                                                                     Deloitte & Touche LLP
                                                                                     Suite 800
                                                                                     1750 Tysons Boulevard
                                                                                     McLean, VA 22102-4219
                                                                                     USA
INDEPENDENT AUDITORS' REPORT                                                         Tel: +1 703 251 1000
                                                                                     Fax: +1 703 251 3400
                                                                                     www.deloitte.com
The Federal Financial Institutions Examination Council:

We have audited the accompanying balance sheets of the Federal Financial Institutions
Examination Council (the “Council”) as of December 31, 2009 and 2008, and the related
statements of revenues and expenses and changes in cumulative results of operations, and cash
flows for the years then ended. These financial statements are the responsibility of the Council’s
management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
respective financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Council’s internal control over financial reporting.
Accordingly, we express no such opinion. An audit also includes examining, on a test basis,
evidence supporting the amounts and disclosures in the respective financial statements, assessing
the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial
position of the Federal Financial Institutions Examination Council as of December 31, 2009 and
2008, and the results of its operations and its cash flows for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated March
9, 2010, on our consideration of the Council’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of that report is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not
to provide an opinion on the internal control over financial reporting or on compliance. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.



McLean, VA
March 9, 2010
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

BALANCE SHEETS
AS OF DECEMBER 31, 2009 AND 2008


                                                                     2009              2008
ASSETS
CURRENT ASSETS:
 Cash                                                         $ 1,022,700        $      708,677
 Accounts receivable from member organizations (Note 3)         1,001,002             1,572,136
 Other accounts receivable — net                                   90,628               105,623

      Total current assets                                         2,114,330          2,386,436

CAPITAL ASSETS:
 Furniture and equipment — at cost                                    118,390            24,199
 Central Data Repository — at cost (Note 4)                        18,231,272        16,036,559
 HMDA software — at cost (Note 5)                                   2,344,680         1,544,895
 Less accumulated depreciation                                    (10,827,552)       (7,887,093)

      Net capital assets                                           9,866,790          9,718,560

TOTAL ASSETS                                                  $ 11,981,120       $ 12,104,996

LIABILITIES AND CUMULATIVE RESULTS OF
 OPERATIONS
CURRENT LIABILITIES:
 Accounts payable and accrued liabilities payable to member
  organizations (Note 3)                                      $      981,180     $ 1,300,718
 Other accounts payable and accrued liabilities (Note 4)             927,051         652,538
 Accrued payroll and annual leave                                     20,117          22,008
 Capital lease payable (Note 7)                                       16,815               -
 Deferred revenue (Note 4)                                         1,856,180       3,388,881

      Total current liabilities                                    3,801,343          5,364,145

LONG-TERM LIABILITIES:
 Capital lease payable (Note 7)                                       80,576                  -
 Deferred revenue (Notes 4 and 5)                                  7,913,219          6,579,680

      Total long-term liabilities                                  7,993,795          6,579,680

      Total liabilities                                           11,795,138         11,943,825
CUMULATIVE RESULTS OF OPERATIONS                                     185,982           161,171

TOTAL LIABILITIES AND CUMULATIVE
 RESULTS OF OPERATIONS                                        $ 11,981,120       $ 12,104,996

See notes to financial statements.




                                                  -2-
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

STATEMENTS OF REVENUES AND EXPENSES AND
CHANGES IN CUMULATIVE RESULTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008


                                                            2009             2008

REVENUES:
 Assessments on member organizations (Note 3)         $      589,988   $      574,447
 Central Data Repository (Note 4)                          5,741,157        6,160,478
 Home Mortgage Disclosure (Note 5)                         3,071,973        2,969,535
 Tuition (Note 3)                                          2,322,041        1,744,029
 Community Reinvestment Act (Note 5)                       1,013,110          931,244
 Uniform Bank Performance Report (Note 5)                    537,606          565,522
 Appraisal Subcommittee (Note 5)                                   -          178,963

      Total revenues                                      13,275,875       13,124,218

EXPENSES:
 Data processing                                           4,370,506        4,126,928
 Professional fees (Note 4)                                3,674,379        4,261,260
 Salaries and related benefits (Note 3)                    1,468,414        1,164,304
 Depreciation (Note 4)                                     2,943,660        2,497,774
 Rental of office space (Note 6)                             247,648          454,184
 Administration fees (Note 3)                                245,000          190,400
 Travel                                                      156,742          135,006
 Books and subscriptions                                      18,985           16,255
 Other seminar expenses                                       33,343           30,824
 Rental and maintenance of office equipment                   50,967           41,998
 Office and other supplies                                    14,107           33,980
 Printing                                                     19,342           43,261
 Postage                                                       1,960            2,475
 Miscellaneous                                                 6,011            9,042

      Total expenses                                      13,251,064       13,007,691

RESULTS OF OPERATIONS                                        24,811          116,527

CUMULATIVE RESULTS OF OPERATIONS — Beginning of
 year                                                       161,171           44,644

CUMULATIVE RESULTS OF OPERATIONS — End of year        $     185,982    $     161,171


See notes to financial statements.




                                                -3-
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008


                                                                       2009              2008

CASH FLOWS FROM OPERATING ACTIVITIES:
 Results of operations                                           $      24,811     $     116,527
 Adjustments to reconcile results of operations to net cash
  provided by operating activities:
  Depreciation                                                       2,943,660         2,497,774
  Central Data Repository write-off                                          -         1,068,697
  (Increase) decrease in assets:
    Accounts receivable from member organizations                      571,133            41,730
    Other accounts receivable                                           14,995           151,274
  Increase (decrease) in liabilities:
    Accounts payable and accrued liabilities payable to member
     organizations                                                    (319,538)          151,924
    Other accounts payable and accrued liabilities                     642,017          (598,992)
    Accrued payroll and annual leave                                    (1,891)         (209,443)
    Deferred revenue (current and non-current)                        (199,161)         (552,620)
    Deferred rent                                                            -           (32,515)

      Net cash provided by operating activities                      3,676,026         2,634,356

CASH FLOWS FROM INVESTING ACTIVITIES — Capital
 expenditures                                                        (3,362,003)       (2,763,850)

NET (DECREASE) INCREASE IN CASH                                        314,023          (129,494)

CASH BALANCE — Beginning of year                                       708,677           838,171

CASH BALANCE — End of year                                       $ 1,022,700       $     708,677


See notes to financial statements.




                                                  -4-
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008


1.   ORGANIZATION AND PURPOSE

     The Federal Financial Institutions Examination Council (the “Council”) was established under Title X of
     the Financial Institutions Regulatory and Interest Rate Control Act of 1978. The purpose of the Council
     is to prescribe uniform principles and standards for the federal examination of financial institutions and
     to make recommendations to promote uniformity in the supervision of these financial institutions. The
     five agencies which are represented on the Council, referred to hereinafter as member organizations, are
     as follows:

     ·   Board of Governors of the Federal Reserve System (FRB)
     ·   Federal Deposit Insurance Corporation (FDIC)
     ·   National Credit Union Administration (NCUA)
     ·   Office of the Comptroller of the Currency (OCC)
     ·   Office of Thrift Supervision (OTS)

     In accordance with the Financial Services Regulatory Relief Act of 2006, a representative state regulator
     was added as a full voting member of the Council in October 2006.

     The Council was given additional statutory responsibilities by Section 340 of the Housing and
     Community Development Act of 1980, Public Law 96-399. Among these responsibilities are the
     implementation of a system to facilitate public access to data that depository institutions must disclose
     under the Home Mortgage Disclosure Act of 1975 (HMDA) and the aggregation of annual HMDA data,
     by census tract, for each metropolitan statistical area.

     Appraisal Subcommittee — The Council’s financial statements do not include financial data for the
     Council’s Appraisal Subcommittee (the Subcommittee). The Subcommittee was created pursuant to
     Public Law 101–73, Title XI of the Financial Institutions Reform, Recovery, and Enforcement Act of
     1989. The functions of the Appraisal Subcommittee are related to the certification and licensing of
     individuals who perform appraisals in connection with federally related real estate transactions.
     Members of the Appraisal Subcommittee consist of the designees of the heads of those agencies, which
     comprise the Council and the designee of the head of the Department of Housing and Urban
     Development.

     All functions and responsibilities assigned to the Council under Title XI are performed directly by the
     Appraisal Subcommittee without any need for approval or concurrence from the Council. The Appraisal
     Subcommittee has its own policies and procedures and submits its own Annual Report to the President
     of the Senate and Speaker of the House. The Council is not responsible for any debts incurred by the
     Subcommittee, nor are Subcommittee funds available for use by the Council.

2.   SIGNIFICANT ACCOUNTING POLICIES

     The Council prepares its financial statements in accordance with accounting principles generally
     accepted in the United States of America (GAAP).




                                                     -5-
Revenues — Assessments made on member organizations are to fund its operations based on expected
cash needs. Amounts over- or under- assessed due to differences between actual and expected cash
needs flow into “Cumulative Results of Operations” during the year and then are used to offset or
increase the next year’s assessment. Deficits in “Cumulative Results of Operations” can be made up in
the following year’s assessments.

Tuition revenue is adjusted at year-end to match expenses incurred as a result of providing education
classes. Uniform Bank Performance Report (UBPR) revenue is adjusted at year-end to match expenses
incurred as a result of providing UBPR service. For differences between revenues and expenses,
member agencies are assessed an additional amount or credited a refund based on each member’s
proportional cost for the Examiner Education and UBPR budget.

Capital Assets — Furniture and equipment is recorded at cost less accumulated depreciation.
Depreciation is calculated on a straight-line basis over the estimated useful lives of the assets, which
range from four to ten years. Upon the sale or other disposition of a depreciable asset, the cost and
related accumulated depreciation are removed and any gain or loss is recognized. The Central Data
Repository (CDR), an internally developed software project, is recorded at cost as required by the
Internal Use Software Topic of FASB Accounting Standards Codification. (See Note 4)

Deferred Revenue — Deferred revenue includes cash collected and accounts receivable primarily
related to the CDR and HMDA. (See Notes 4 and 5)

Deferred Rent — The lease for office and classroom space contains scheduled rent increases over the
term of the lease. As required by the Leases Topic of the FASB Accounting Standards Codification, rent
abatements and scheduled rent increases must be considered in determining the annual rent expense to
be recognized. The deferred rent represents the difference between the actual lease payments and the
rent expense recognized.

Estimates — The preparation of financial statements in conformity with GAAP requires management to
make estimates and assumptions that affect the reported amounts of assets and liabilities and the
disclosure of contingent assets and liabilities at the date of the financial statements and the reported
amounts of revenues and expenses during the reporting period. Actual results could differ from those
estimates.

Allowance for Doubtful Accounts — Accounts receivable for non-members are shown net of the
allowance for doubtful accounts. Accounts receivable considered uncollectible are charged against the
allowance account in the year they are deemed uncollectible. The allowance for doubtful accounts is
adjusted monthly, based upon a review of outstanding receivables.

Recently Issued Accounting Standards — On June 30, 2009, the FASB issued SFAS No. 168, “The
Statement of Financial Accounting Standards Codification and the Hierarchy of Generally Accepted
Accounting Principles, a replacement of SFAS No. 162, The Hierarchy of Generally Accepted
Accounting Principles” (SFAS 168). SFAS 168 establishes the FASB Accounting Standards
Codification (ASC) as the source of authoritative accounting principles recognized by the FASB to be
applied by entities in the preparation of financial statements in conformity with GAAP. The ASC does
not change current GAAP, but it introduces a new structure that organizes the authoritative standards by
topic. SFAS 168 is effective for financial statements issued for periods ending after September 15, 2009.
In accordance with the requirements of this standard the ASC is referenced in the Council’s financial
statements and footnotes.




                                                 -6-
     The Subsequent Events Topic of FASB ASC establishes general standards of accounting for and
     disclosure of events that occur through the balance sheet date but before financial statements are issued
     or are available to be issued. The ASC sets forth (i) the period after the balance sheet date during which
     management of a reporting entity should evaluate events or transactions that may occur for potential
     recognition or disclosure in the financial statements; (ii) the circumstances under which an entity should
     recognize events or transactions occurring after the balance sheet date in its financial statements; and
     (iii) the disclosures that an entity should make about events or transactions that occurred after the
     balance sheet date, including disclosure of the date through which an entity has evaluated subsequent
     events and whether that represents the date the financial statements were issued or were available to be
     issued. The Council adopted the standard for the year ended December 31, 2009.

3.   TRANSACTIONS WITH MEMBER ORGANIZATIONS

                                                                                   2009             2008

       Accounts receivable:
        Board of Governors of the Federal Reserve System                       $ 209,922       $ 373,466
        Federal Deposit Insurance Corporation                                    439,609         466,052
        National Credit Union Administration                                      48,593         109,261
        Office of the Comptroller of the Currency                                244,883         522,167
        Office of Thrift Supervision                                              57,995         101,190

                                                                               $ 1,001,002     $ 1,572,136

       Accounts payable and accrued liabilities:
        Board of Governors of the Federal Reserve System                       $ 618,861       $ 650,672
        Federal Deposit Insurance Corporation                                    247,870         396,899
        National Credit Union Administration                                      20,877          40,085
        Office of the Comptroller of the Currency                                 72,103         132,891
        Office of Thrift Supervision                                              21,469          80,171

                                                                               $ 981,180       $ 1,300,718

       Operations:
        Assessments to member organizations for operating expenses             $ 589,988       $ 574,447
        FRB provided administrative support services to the Council
         at an expense of                                                         245,000          190,400
        Member organizations provide office space and data
         processing services to the Council at an expense of                    4,618,154        4,374,577

     The Council does not directly employ personnel, but rather member organizations detail personnel to
     support Council operations. These personnel are paid through the payroll systems of member
     organizations. Salaries and fringe benefits, including retirement benefit plan contributions, are
     reimbursed to these organizations. The Council does not have any post-retirement or post-employment
     benefit liabilities since Council personnel are included in the plans of the member organizations.




                                                     -7-
     Member organizations are not reimbursed for the costs of personnel who serve as Council members and
     on the various task forces and committees of the Council. The value of these contributed services is not
     included in the accompanying financial statements.

                                                                                    2009              2008

       Examiner education — the Council provides seminars in the
        Washington, D.C. area and at regional locations throughout
        the country for member organization examiners and other
        agencies. Tuition revenue earned from member
        organizations was                                                       $ 2,220,876       $ 1,627,429

4.   CENTRAL DATA REPOSITORY

     In 2003, the Council entered into an agreement with UNISYS to enhance the methods and systems used
     to collect, validate, process, and distribute Call Report information, and to store this information in a
     Central Data Repository (CDR).

     The CDR was placed into service in October 2005. At that time, the Council began depreciating the
     CDR project on the straight-line basis over its estimated useful life of 63 months. In 2009, the Council
     reevaluated the useful life of CDR and decided to extend the estimated useful life by an additional
     36 months based on enhanced functionality of the software. The Council records depreciation expenses
     and recognizes the same amount of revenue. The value of the CDR asset as of December 31, 2009 and
     2008, includes the fully accrued and paid cost. The accrued costs related to CDR are $204,000 as of
     December 31, 2009.

                                                                                  2009               2008

       Capital asset CDR:
        Beginning balance                                                   $ 14,140,655      $ 12,858,440
        Software placed in use during the year                                 4,090,617         1,282,215

              Software in use                                                   18,231,272        14,140,655

       Software in development                                                           -         1,895,904

       Total asset                                                          $ 18,231,272      $ 16,036,559

       Other accounts payable and accrued liabilities:
        Payable to UNISYS for the CDR project                               $     729,166     $      609,203
        Other vendors unrelated to the CDR project                                197,885             43,335

       Total other accounts payable and accrued liabilities                 $     927,051     $      652,538




                                                     -8-
Revenues — Central Data Repository — The Council is funding the project by billing the three
participating Council member organizations (FRB, FDIC, and OCC). Funding for the year ended
December 31, 2009 and 2008, is as follows.

  Deferred Revenue                                                     2009            2008

  Beginning balance                                               $ 8,173,666      $ 9,776,071
  Additions                                                         2,194,713          895,369
  Less revenue recognized                                          (2,943,660)      (2,497,774)

  Ending balance                                                  $ 7,424,719      $ 8,173,666

  Current portion deferred revenue                                $ 1,856,180      $ 3,138,881
  Long-term deferred revenue                                        5,568,539        5,034,785

                                                                  $ 7,424,719      $ 8,173,666

  Total CDR Revenue

  Revenue                                                         $ 2,943,660      $ 2,497,774
  Hosting and maintenance fees                                      2,797,497        3,662,704

  Total CDR revenue                                               $ 5,741,157      $ 6,160,478

  Professional Fees

  Hosting and maintenance fees for the CDR project                $ 2,797,497      $ 3,662,704
  Other professional fees unrelated to the CDR project                876,882          598,556

  Total professional fees                                         $ 3,674,379      $ 4,261,260

  Depreciation

  Depreciation for the CDR project                                $ 2,943,660      $ 2,497,774

  Average monthly depreciation                                    $   245,305      $   208,148




                                               -9-
5.   OTHER REVENUE

     HMDA — The Council entered into an agreement with FRB to maintain and support the HMDA
     processing system. In 2007, the Council began a rewrite of the entire HMDA processing system. The
     total estimated cost for the rewrite is $3.2 million over 4 years. The HMDA rewrite will enhance the
     processing system. The cost of the software in process is $2,344,680 and $1,544,895 as of December 31,
     2009 and 2008, respectively. The accrued costs related to the HMDA rewrite are $65,000 as of
     December 31, 2009. The financial activity associated with the processing system for the year ended
     December 31, 2009 and 2008, is as follows.

       HMDA Deferred Revenue                                                       2009             2008

       HMDA:
        The Council recognized the following revenue from
         member organizations for the production and distribution
         of reports under the HMDA                                             $ 2,234,514      $ 2,088,052
        The Council recognized the following revenue from the
         Department of Housing and Urban Development’s
         participation in the HMDA project                                        559,151          600,089
        The Council recognized the following revenue from the
         Mortgage Insurance Companies of America for performing
         HMDA-related work                                                        278,308          264,193
        The balance of the HMDA revenue for 2009 and 2008 from
         sales to the public                                                              -          17,201

       Total HMDA                                                              $ 3,071,973      $ 2,969,535

     Community Reinvestment Act (CRA) — The Council recognized revenue for support of operating
     expenses from the participating member agencies.

     Uniform Bank Performance Report (UBPR) — The Council coordinates the production and
     distribution of the Uniform Bank Performance Reports (UBPR) through the FDIC. The Council is
     reimbursed for the direct cost of the operating expenses it incurs for this project. The Council recognized
     revenue for coordinating and providing certain administrative support to the UBPR project.

     Appraisal Subcommittee — The Council recognized revenue in 2008 for providing space to the
     Appraisal Subcommittee.




                                                     - 10 -
6.   OPERATING LEASES

     The FRB, on behalf of the Council, entered into two operating leases at market value to secure office
     and classroom space. One lease terminated in 2008. The second lease terminated in 2009. The Council
     entered into a new lease with the FDIC as of January 2010.

       Years Ending
       December 31                                                                             Amount

       2010                                                                                  $ 258,385
       2011                                                                                    261,598
       2012                                                                                    264,900
       2013                                                                                    268,292
       2014                                                                                    271,772

       Total minimum lease payments                                                          $ 1,324,947

     Rental expenses under these operating leases were $247,648 and $454,184 as of December 31, 2009 and
     2008, respectively.

7.   CAPITAL LEASES

     In December 2009, the Council entered into a capital lease for printing equipment. The capital lease
     term extends through 2014. Furniture and equipment includes $97,391 in 2009 for the capital lease. The
     capital lease will commence in January 2010, when the Council will begin to depreciate the asset and
     pay interest accordingly. The Council will begin payments towards the capital lease in February 2010.

     The future minimum lease payments required under the capital lease and the present value of the net
     minimum lease payments as of December 31, 2009, are as follows:

       Years Ending
       December 31                                                                              Amount

       2010                                                                                   $ 24,466
       2011                                                                                     24,466
       2012                                                                                     24,466
       2013                                                                                     24,466
       2014                                                                                     24,467

              Total minimum lease payments                                                      122,331

       Less amount representing maintenance                                                       (6,000)

              Net minimum lease payments                                                        116,331

       Less amount representing interest                                                        (18,940)

              Net minimum lease payments                                                         97,391

       Less current maturities of capital lease payments                                        (16,815)

       Long-term capital lease obligations                                                    $ 80,576


                                                    - 11 -
8.   SUBSEQUENT EVENTS

     There were no subsequent events that require adjustments to or disclosures in the financial statements as
     of December 31, 2009. Subsequent events were evaluated through March 9, 2010, which is the date the
     Council issued the financial statements.

                                                 ******




                                                    - 12 -
                                                                                   Deloitte & Touche LLP
                                                                                   Suite 800
                                                                                   1750 Tysons Boulevard
                                                                                   McLean, VA 22102-4219
                                                                                   USA
                                                                                   Tel: +1 703 251 1000
                                                                                   Fax: +1 703 251 3400
                                                                                   www.deloitte.com




INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED
ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE
WITH GOVERNMENT AUDITING STANDARDS

The Federal Financial Institutions Examination Council:

We have audited the financial statements of the Federal Financial Institutions Examination
Council (the “Council”) as of and for the year ended December 31, 2009, and have issued our
report thereon dated March 9, 2010. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States.

Internal Control over Financial Reporting

In planning and performing our audit, we considered the Council’s internal control over financial
reporting as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the Council’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of the Council’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity's ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of the Council’s
financial statements that is more than inconsequential will not be prevented or detected by the
Council’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the Council’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in internal control that might be significant deficiencies or material weaknesses. We did not
identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above.
Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Council’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion. The results of our tests disclosed no instances
of noncompliance or other matters that are required to be reported under Government Auditing
Standards.

Distribution

This report is intended solely for the information and use of the Council, management, and
others within the organization, and the Office of Inspector General, and the United States
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.



McLean, VA
March 9, 2010
